                                                                 Issue Date
                                                                      September 28, 2009
                                                                 Audit Report Number
                                                                      2009-CH-1016




TO:         Steven E. Meiss, Director of Public Housing Hub, 5APH


FROM:       Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The DuPage Housing Authority, Wheaton, Illinois, Needs to Improve Its
           Controls over Housing Assistance and Utility Allowance Payments

                                   HIGHLIGHTS

 What We Audited and Why

             We audited the DuPage Housing Authority’s (Authority) Section 8 Project-Based
             Voucher program (program). The audit was part of the activities in our fiscal year
             2009 annual audit plan. We selected the Authority based on our internal audit
             survey of the U.S. Department of Housing and Urban Development’s (HUD)
             oversight of the program and our analysis of risk factors relating to the housing
             authorities in Region V’s jurisdiction. Our objective was to determine whether
             the Authority effectively administered its program in accordance with the HUD
             requirements and its administrative plan. This is the first of two audit reports on
             the Authority’s program.

 What We Found

             The Authority’s program administration regarding documentation of households’
             eligibility and housing assistance and utility allowance payment calculations was
             inadequate. The Authority did not ensure that its household files contained the
             required documentation to support households’ admission to and continued
             assistance on the program. All of the 41 files statistically selected for review
             were missing support documentation required by HUD and the Authority’s
           administrative plan to support more than $400,000 in housing assistance and
           utility allowance payments and associated administrative fees.

           In addition, the Authority did not effectively manage its housing assistance
           calculation and payment process in accordance with HUD requirements and its
           administrative plan, resulting in more than $4,000 in overpayments, and nearly
           $2,000 in underpayments for the period July 1, 2007, through March 31, 2009.
           Further, the Authority improperly received more than $6,000 in administrative
           fees for the households with incorrect housing assistance payments. Based on our
           statistical sample, we estimate that over the next year, the Authority will overpay
           nearly $6,000 and underpay nearly $1,000 in housing assistance and utility
           allowances due to calculation errors.

What We Recommend

           We recommend that the Director of HUD’s Chicago Office of Public Housing
           require the Authority to reimburse its program from nonfederal funds for the
           improper use of more than $10,000 in program funds, provide documentation or
           reimburse its program more than $400,000, and implement adequate procedures
           and controls to address the finding cited in this audit report. These procedures
           and controls should help to ensure that more than $8,000 in program funds is
           spent on program administration that meets HUD’s requirements over the next
           year.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response

           We provided our review results and supporting schedules to the Director of
           HUD’s Chicago Office of Public Housing and the Authority’s executive director
           during the audit. We also provided our discussion draft audit report to the
           Authority’s executive director, its board chairman, and HUD’s staff during the
           audit. We held an exit conference with the Authority’s executive director on
           September 22, 2009.

           We asked the Authority’s executive director to provide comments on our
           discussion draft audit report by September 25, 2009. The Authority’s executive
           director provided written comments, dated September 23, 2009. The executive
           director agreed with our finding and recommendations. The complete text of the
           auditee’s response, along with our evaluation of that response, can be found in
           appendix B of this report.


                                           2
                            TABLE OF CONTENTS

Background and Objective                                                          4

Results of Audit
      Finding: Controls over Housing Assistance and Utility Allowance Payments    5
              Were Inadequate

Scope and Methodology                                                             9

Internal Controls                                                                11

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use             13
   B. Auditee Comments and OIG’s Evaluation                                      14
   C. Federal Requirements and the Authority’s Program Administrative Plan       17




                                          3
                       BACKGROUND AND OBJECTIVE

The DuPage Housing Authority (Authority) was established by the State Housing Board of Illinois
in September 1942 under the laws of the State of Illinois to provide decent, safe, and sanitary
housing. The Authority is governed by a seven-member board of commissioners (board) appointed
by the chairman of the DuPage County Board, to five-year staggered terms. The board’s
responsibilities include overseeing the administration of the Authority and approving policies. The
board appoints the Authority’s president. The president is responsible for ensuring that policies are
followed and providing oversight of the Authority’s programs.

The Authority administers a Section 8 Housing Choice Voucher program funded by the U.S.
Department of Housing and Urban Development (HUD). It provides assistance to low- and
moderate-income individuals seeking decent, safe, and sanitary housing by subsidizing rents with
owners of existing private housing. As of March 31, 2009, the Authority had 2,572 units under
contract with annual housing assistance payments totaling more than $23.2 million in program
funds.

On January 1, 2005, the Authority executed its first Section 8 Project-Based Voucher program
(program) housing assistance payments contract. The Authority may use up to 20 percent of its
Section 8 Housing Choice Voucher program funding for newly constructed, existing, or
rehabilitated program units. Households must live in the program units for a minimum of one year.
After the initial year, the households may join the Housing Choice Voucher program, provided there
is a voucher available. The Authority made housing assistance and utility allowance payments,
totaling more than $2 million, for 203 program households between July 1, 2007, and March 31,
2009.

Our objective was to determine whether the Authority effectively administered its program in
accordance with HUD’s requirements to include determining whether the Authority (1) maintained
adequate documentation to support program household eligibility and (2) accurately calculated
housing assistance and utility allowance payments.




                                                4
                               RESULTS OF AUDIT

Finding: Controls over Housing Assistance and Utility Allowance
                     Payments Were Inadequate
The Authority did not comply with HUD’s requirements and its program administrative plan
regarding housing assistance and utility allowance payments. It failed to maintain
documentation to support households’ admission to and continued assistance on the program and
accurately calculate housing assistance payments. This condition occurred because the Authority
lacked controls to ensure that HUD’s requirements and its program administrative plan were
appropriately followed. As a result, the Authority was unable to support more than $400,000 in
housing assistance and utility allowance payments and overpaid more than $4,000 and underpaid
nearly $2,000 in housing assistance and utility allowance payments. Based on our statistical
sample, we estimate that over the next year, the Authority will overpay nearly $6,000 and
underpay nearly $1,000 in housing assistance.



 The Authority Lacked
 Documentation to Support
 Housing Assistance and Utility
 Allowance Payments

              We statistically selected 41 household files from a universe of 203 households
              receiving housing assistance between July 1, 2007, and March 31, 2009. The 41
              files were reviewed to determine whether the Authority had documentation for
              and correctly calculated households’ housing assistance and utility allowance
              payments for the period July 2007 through March 2009. Our review was limited
              to the information maintained by the Authority in its household files.

              The Authority lacked documentation to support housing assistance and utility
              allowance payments totaling $383,900 for the period July 2007 through March
              2009. The documentation was required by HUD’s regulations and the Authority’s
              program administrative plan. The 41 files were missing the following support
              documentation:

                     •   41 were missing evidence that criminal background checks were
                         completed for 43 household members;
                     •   35 were missing evidence that rent reasonableness determinations
                         were completed for the units;
                     •   14 were missing original housing applications;
                     •   Three were missing copies of Social Security numbers;
                     •   Three were missing HUD Form-9886, Authorization for Release of
                         Information and Privacy Act Notice; and

                                             5
                   •   Two were missing executed leases.

            The Authority obtained new or original documentation after we notified it of the
            missing or incomplete documents during the audit. As a result, recommendation
            1A was reduced to $10,821 ($9,386 in housing assistance and utility allowance
            payments plus $1,435 in associated administrative fees). These questioned costs
            reflect only the remaining missing documentation.

The Authority Miscalculated
Housing Assistance and Utility
Allowance Payments

            The Authority’s miscalculations and failure to comply with program requirements
            resulted in housing assistance and utility allowance overpayments of $4,346 and
            underpayments of $1,753. Of the 41 files reviewed, the Authority incorrectly
            calculated housing assistance and/or utility allowance payments for 27 households
            in one or more of the certifications reviewed. The incorrectly calculated housing
            assistance was due to the following errors:

               •   22 had incorrect medical expenses for one or more certifications,
               •   10 had incorrect assets for one or more certifications, and
               •   Five had incorrect annual income for one or more certifications.

            In addition, the Authority did not consistently use section 11, Project Based
            Certificates and Vouchers, of HUD’s Form-50058 to calculate housing assistance
            and utility allowances. Section 11 is used to identify the households as program
            participants in HUD’s Public and Indian Housing Information Center system and
            prevents program households from paying more than 30 percent of their adjusted
            monthly income toward rent. Of the 41 files reviewed, the Authority incorrectly
            completed the Form-50058 for 14 households, which resulted in underpaid
            housing assistance for one household.


The Authority Lacked Controls
over Its Housing Assistance
Calculations Process

            The missing documentation and incorrect housing assistance calculations
            occurred because the Authority had no controls to ensure that it appropriately
            followed HUD’s regulations and its program administrative plan.

            The Authority’s program administrative plan and other applicable policies and
            procedures were adequate if followed. However, the Authority did not always
            follow its policies and procedures regarding the maintenance of eligibility
            documentation and the calculation of assets, income, and medical expenses. In

                                            6
             addition, the Authority had no quality control procedures in place to identify
             inconsistencies. The Authority’s program administrative plan states that the
             Authority will review a random sample of tenant records annually to determine
             whether the records conform to program requirements. However, the Authority’s
             program manager said that the program files were not included in the quality
             control review process. She said that she kept the program files separate from the
             tenant-based files because she was unaware of the program requirements. Quality
             control reviews are an important step in ensuring that the Authority’s files contain
             the required eligibility documentation and that housing assistance and utility
             allowances are accurate.

Conclusion

             The Authority improperly used its program funds when it failed to comply with
             HUD’s requirements and its program administrative plan. It disbursed $383,900
             in housing assistance and utility allowance payments without supporting
             documentation. In addition, it overpaid $4,346 and underpaid $1,753 in housing
             assistance and utility allowances for a net overpayment of $2,593.

             In accordance with 24 CFR [Code of Federal Regulations] 982.152(d), HUD is
             permitted to reduce or offset any program administrative fees paid to a public
             housing authority if it fails to perform its administrative responsibilities correctly
             or adequately under the program. The Authority received $42,377 in program
             administrative fees related to the unsupported payments for the 41 households and
             $6,223 in program administrative fees for the 27 households with incorrect
             housing assistance and utility allowance payments.

             HUD lacked assurance that the Authority used its program funds efficiently and
             effectively. If the Authority does not correct its certification process, we estimate
             that it could overpay $5,888 and underpay $785 in housing assistance and utility
             allowances over the next year. Our methodology for this estimate is explained in
             the Scope and Methodology section of this audit report. The Authority could put
             these funds to better use if proper procedures and controls are put into place to
             ensure the accuracy of housing assistance and utility allowance payments.

Recommendations


             We recommend that the Director of HUD’s Chicago Office of Public Housing
             require the Authority to

             1A. Provide support documentation or reimburse its program $426,277 ($383,900
                 in housing assistance and utility allowance payments plus $42,377 in
                 associated administrative fees) from nonfederal funds for the unsupported
                 payments and associated administrative fees cited in this finding, of which


                                              7
     $10,821 ($9,386 in housing assistance and utility allowance payments plus
     $1,435 in associated administrative fees) remains to be supported or should be
     reimbursed.

1B. Reimburse its program $10,569 ($4,346 in housing assistance and utility
    allowance payments plus $6,223 in associated administrative fees) from
    nonfederal funds for the overpayment of housing assistance and utility
    allowances cited in this finding.

1C. Reimburse the appropriate households $1,753 from program funds for the
    underpayment of housing assistance citied in this finding.

1D. Implement adequate procedures and controls to ensure that all required file
    documentation is complete, accurate, and maintained in its household files to
    support the eligibility and calculation of housing assistance and utility
    allowance payments in accordance with its administrative plan.

1E. Implement adequate quality controls, to include file reviews, to ensure that it
    properly calculates housing assistance and utility allowance payments in
    accordance with its administrative plan. By implementing adequate controls,
    the Authority should help to ensure that $6,673 ($5,888 plus $785) in program
    funds is appropriately used for future payments.

1F. Ensure that staff members responsible for performing household certifications
    are knowledgeable of the appropriate procedures to use when completing the
    Form-50058 to ensure that program participants are correctly reported to HUD
    and households are not paying more than 30 percent of their adjusted monthly
    income toward rent.




                                8
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

   •   Applicable laws; regulations; the Authority’s program administrative plan; HUD’s program
       requirements at 24 CFR Parts 5, 982, and 983; and HUD’s Housing Choice Voucher
       Guidebook 7420.10.

   •   The Authority’s accounting records, annual audited financial statements for 2007 and 2008,
       bank statements, household files, policies and procedures, board meeting minutes for July
       2007 through March 2009, organization chart, and program annual contributions contract
       with HUD.

   •   HUD’s files for the Authority.

We also interviewed the Authority’s employees and board chairman, HUD staff, and program
households.

Using data mining software, we statistically selected 41 from the 203 households receiving housing
assistance payments between July 1, 2007, and March 31, 2009. The 41 files were reviewed to
determine whether the Authority had documentation and correctly calculated households’
housing assistance and utility allowance payments for the period July 2007 through March 2009.
Our sampling criteria used a 90 percent confidence level and precision of plus or minus 10
percent.

Our sampling results determined that the housing assistance and/or utility allowance payments were
miscalculated for 27 households in one or more of the certifications reviewed. Of these 27
household files with calculation errors, 18 resulted in overpaid housing assistance and utility
allowances, and the remaining nine resulted in underpaid housing assistance and utility allowances.

Based on our sample review results, using difference estimation methodology, we are 95 percent
confident that the amount of overpaid housing assistance and utility allowances due to calculation
errors over the next year will be at least $5,888. This amount was determined by limiting the
estimated difference lower limit of overpaid housing assistance to one year. We divided the
estimated difference lower limit of $10,304 by 21 months and then multiplied by 12 months. In
addition, we are 95 percent confident that the amount of underpaid housing assistance and utility
allowances due to calculation errors over the next year will be at least $785. This amount was
determined by limiting the estimated difference upper limit of underpaid housing assistance to one
year. We divided the estimated difference lower limit of $1,373 by 21 months and then multiplied
by 12 months.

To prevent double counting, we subtracted the overpaid housing assistance and improper
administrative fees associated with the review of the housing assistance calculation and payment
process from the unsupported housing assistance and improper administrative fees associated with
the households missing the required support documentation.

                                               9
We performed our on-site audit work between April and August 2009 at the Authority’s offices
located at 711 East Roosevelt Road, Wheaton, Illinois. The audit covered the period July 1, 2007,
through March 31, 2009, but was expanded as determined necessary.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our finding and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our finding and conclusions based
on our audit objective.




                                                10
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following controls are achieved:

   •   Program operations,
   •   Relevance and reliability of information,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding of assets and resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined that the following internal controls were relevant to our audit
              objective:

              •   Program operations - Policies and procedures that management has
                  implemented to reasonably ensure that a program meets its objectives.

              •   Validity and reliability of data - Policies and procedures that management has
                  implemented to reasonably ensure that valid and reliable data are obtained,
                  maintained, and fairly disclosed in reports.

              •   Compliance with laws and regulations - Policies and procedures that
                  management has implemented to reasonably ensure that resource use is
                  consistent with laws and regulations.

              •   Safeguarding resources - Policies and procedures that management has
                  implemented to reasonably ensure that resources are safeguarded against
                  waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                              11
Significant Weaknesses

           Based on our review, we believe that the following items are significant weaknesses:

           •   Adequate controls to ensure compliance with HUD’s requirements and the
               Authority’s program administrative plan regarding the maintenance of
               documentation to support household eligibility and the calculation of housing
               assistance and utility allowance payments (see finding).

           •   Quality control review process and procedures for documenting support for
               program households’ eligibility and the calculation of housing assistance
               payments (see finding).




                                           12
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

        Recommendation             Ineligible 1/    Unsupported      Funds to be put
            number                                           2/       to better use 3/
               1A                                      $426,277
               1B                      $10,569
               1C                                                             $1,753
               1E                                                              6,673
              Totals                   $10,569         $426,277               $8,426


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In these instances, if the Authority implements our
     recommendations, it will cease to incur program costs for the overpayment and/or
     underpayment of housing assistance and, instead, will expend those funds in accordance
     with HUD’s requirements and/or the Authority’s program administrative plan. Once the
     Authority successfully improves its controls, this will be a recurring benefit. Our
     estimate reflects only the initial year of this benefit.




                                            13
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         14
Ref to OIG Evaluation   Auditee Comments




                         15
                        OIG Evaluation of Auditee Comments

Comment 1   We adjusted recommendation 1A based upon additional documentation provided
            by the Authority.




                                         16
Appendix C

      FEDERAL REQUIREMENTS AND THE AUTHORITY’S
            PROGRAM ADMINISTRATIVE PLAN

HUD’s regulations at 24 CFR 5.216(a) state that each assistance applicant must submit the
complete and accurate Social Security number assigned to the applicant and to each member of
the household who is at least six years of age. The documentation necessary to verify the Social
Security number of an individual is a valid Social Security number card issued by the Social
Security Administration or such other evidence of the Social Security number as HUD and, when
applicable, the public housing authority may prescribe in administrative instructions.

HUD’s regulations at 24 CFR 5.508 require evidence of citizenship or eligible immigration
status for each household member regardless of age. For U.S. citizens or U.S. nationals, the
evidence consists of a signed declaration of U.S. citizenship or U.S. nationality.

HUD’s regulations at 24 CFR 5.603(b) state that medical expenses, including medical insurance
premiums, are anticipated expenses during the period for which annual income is computed and
that are not covered by insurance.

HUD’s regulations at 24 CFR 5.609(b)(3) state that when the family has net family assets in
excess of $5,000, annual income shall include the greater of the actual income derived from all
net family assets or a percentage of the value of such assets based on the current passbook
savings rate, as determined by HUD.

HUD’s regulations at 24 CFR 982.54 require the public housing authority to adopt a written
administrative plan that establishes local policies for the administration of the program in
accordance with HUD requirements. The administrative plan states the authority’s policy on
matters for which the authority has discretion to establish local policies. (c) The public housing
authority must administer the program in accordance with the authority’s administrative plan.

HUD’s regulations at 24 CFR 982.152(d) state that HUD may reduce or offset any
administrative fee to the authority, in the amount determined by HUD, if the authority fails to
perform authority administrative responsibilities correctly or adequately under the program.

HUD’s regulations at 24 CFR 982.153 state that the public housing authority must comply with
the consolidated annual contributions contract, the application, HUD regulations and other
requirements, and the authority’s program administrative plan.

HUD’s regulations at 24 CFR 982.158(e) state that during the term of each assisted lease and for
at least three years thereafter, the public housing authority must keep (1) A copy of the executed
lease, (2) the housing assistance payments contract, and (3) the application from the family.
HUD’s regulations at 24 CFR 982.158(f) state that the public housing authority must keep the
following records for at least three years: (1) records that provided income, racial, ethnic,


                                               17
gender, and disability status data on program applicants and participants; (2) an application from
each ineligible family and notice that the applicant is not eligible; (3) HUD-required reports; (4)
unit inspection reports; (5) lead-based paint records; (6) accounts and other records supporting
public housing authority budget and financial statements for the program; (7) records to
document the basis for public housing authority determination that rent to owner is a reasonable
rent; and (8) other records specified by HUD.

HUD’s regulations at 24 CFR 982.516(a)(1) state that the public housing authority must conduct
a reexamination of family income and composition at least annually. (2) The authority must
obtain and document in the tenant file third-party verification of the following factors or must
document in the tenant file why third-party verification was not available: (i) reported family
annual income, (ii) the value of assets, (iii) expenses related to deductions from annual income,
and (iv) other factors that affect the determination of adjusted income. (b)(1) At any time, the
public housing authority may conduct an interim reexamination of family income and
composition.

HUD’s regulations at 24 CFR 982.516(f) state that the public housing authority must establish
procedures that are appropriate and necessary to ensure that income data provided by applicant
or participant families are complete and accurate.

HUD’s regulations at 24 CFR 982.158(a) state that the public housing authority must maintain
complete and accurate accounts and other records for the program in accordance with HUD
requirements in a manner that permits a speedy and effective audit. (e) During the term of each
assisted lease and for at least three years thereafter, the authority must keep (1) a copy of the
executed lease, (2) the housing assistance payments contract, and (3) the application from the
family.

HUD’s regulations at 24 CFR 982.553(a)(2)(i) state that the public housing authority must
establish standards that prohibit admission to the program if any member of the household is
subject to a lifetime registration requirement under a state sex offender registration program. In
this screening of applicants, the public housing authority must perform criminal history
background checks necessary to determine whether any household member is subject to a
lifetime sex offender registration requirement in the state where the housing is located and in
other states where the household members are known to have resided.

HUD’s regulations at 24 CFR 982.553(a)(2)(ii) state that the public housing authority may
prohibit admission of a household to the program if the public housing authority determines that
any household member is currently engaged in or has engaged in during a reasonable time before
the admission (1) drug-related criminal activity; (2) violent criminal activity; (3) other criminal
activity which may threaten the health, safety, or right to peaceful enjoyment of the premises by
other residents or persons residing in the immediate vicinity; or (4) other criminal activity which
may threaten the health or safety of the owner, property management staff, or persons
performing a contract administration function or responsibility on behalf of the public housing
authority.




                                               18
HUD’s regulations at 24 CFR 983.303(d)(1) state that for each unit, the public housing authority
comparability analysis must use at least three comparable units in the private unassisted market,
which may include comparable unassisted units in the premises or project. (2) The public
housing authority must retain a comparability analysis that shows how the reasonable rent was
determined, including major differences between the contract units and comparable unassisted
units.

HUD’s Housing Choice Voucher Guidebook 7420.10G, section 5.5, states that medical expenses
are expenses anticipated to be incurred during the 12 months following certification or
reexamination, which are not covered by an outside source such as insurance. The medical
allowance is not intended to give a family an allowance equal to last year’s expenses but to
anticipate regular ongoing and anticipated expenses during the coming year.

Chapter 2, section F, of the Authority’s administrative plan states that the public housing
authority will check criminal history for all adults in the household to determine whether any
member of the family has violated any of the prohibited behaviors as referenced in the section on
screening and terminations policy.

Chapter 7, section A, of the Authority’s program administrative plan states that for applicants,
verifications may not be more than 60 days old at the time of voucher issuance. For participants,
they are valid for 120 days from the date of receipt.

Chapter 7, section H, of the Authority’s program administrative plan states that all expense
claims will be verified by one or more of the following methods: receipts or other record of
medical expense incurred during the past 12 months that can be used to anticipate future medical
expenses. The public housing authority may use this approach for “general medical expenses”
such as nonprescription drugs and regular visits to doctors or dentists but not for one-time,
nonrecurring expenses from the previous year.

Chapter 15, section B, of the Authority’s administrative plan states that the public housing
authority will ensure that any criminal record received is maintained confidentially, not misused
or improperly disseminated, and destroyed once the purpose for which it was requested is
accomplished. Misuse of the above information by any employee may be grounds for
termination of employment. If the family is determined eligible for initial or continued
assistance, the criminal report shall be shredded as soon as the information is no longer needed
for eligibility or continued assistance determination. If the family’s assistance is denied or
terminated, the criminal record information shall be shredded immediately upon completion of
the review or hearing procedures and after a final decision has been made. The public housing
authority will document in the family’s file the circumstances of the criminal report and the date
the report was destroyed.




                                               19
